      DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                        Office of Audit Services
..                                                                      Region I
                                                                        John F. Kennedy Federal Building
                                                                        Boston, MA 02203
                                                                        (617) 565-2684


     November 3,2008

     TO:	          Jackie Gamer, Consortium Administrator
                   Consortium for Medicaid and Children's Health Operations
                   Centers for Medicare & Medicaid Services

     FROM:	        Michael J. Armstrong                                                         17
                   Regional Inspector General for Audit Services, Region I   I
                                                                                    I


                                                                                                           0
     SUBJECT:       Partnership Review of Medicaid Claims Processed by Cerebral Palsy and Stavros
                   .for Personal Care Attendant Services Provided to Beneficiaries during Inpatient
                    Stays (A-OI-08-0000I)


     We are transmitting, for your information and use, the attached final report on the partnership
     review of Medicaid claims processed by Cerebral Palsy and Stavros for personal care attendant
     (PCA) services provided to beneficiaries during inpatient stays from October 1,2004, through
     September 30,2005. This review was conducted by the Massachusetts Office of the State
     Auditor (OSA) and our Office of Inspector General (OIG). The objective of the review was to
     determine if Cerebral Palsy and Stavros processed claims for PCA services provided to
     beneficiaries during inpatient stays.

     OSA's report was issued to the Massachusetts Executive Office of Health and Human Services
     (the State agency). We participated in the OSA review by providing the 200 sampled items and
     technical assistance for each phase of the review. We       performed a desk review on each of
     the errors identified once OSA had completed its analysis of the sample. Therefore, we believe
     that the attached OSA audit report is reliable and can be used by the Centers for Medicare &
     Medicaid Services in meeting its program oversight responsibilities.

     The State agency administers the Medicaid program and is responsible for processing PCA
     service claims. Cerebral Palsy and Stavros are contracted to provide fiscal intermediary services
     on behalf of the State agency. Section 1905(a)(24) of the Act authorizes payment for PCA
     services for a beneficiary "who is not an inpatient or resident of a hospital, nursing facility,
     intermediate care facility for the mentally retarded or an institution for mental disease ...."

     OSA documented that 118 out of the 200 sampled paid claims processed by Cerebral Palsy and
     Stavros were for PCA services provided to beneficiaries during inpatient stays. In addition, OSA
     determined that the State agency's internal controls and procedures were inadequate to prevent or
     detect overpayments for PCA services provided while the beneficiaries were residents of either
     nursing facilities or other inpatient facilities.
Page 2 - Ms. Jackie Garner

Based on the results of the review, GSA recommended that the State agency strengthen its
internal controls and oversight over payments for PCA services to ensure that it does not pay for
noncovered services, including those provided to beneficiaries who are residents of nursing
facilities or other inpatient facilities. Furthermore, GSA recommended that the State agency
collect the estimated $610,333 ($305,167 Federal share) that Cerebral Palsy and Stavros
processed for noncovered services.

The State agency agreed with GSA's findings. Accordingly, the State agency undertaking an
extensive review of its rules, regulations, policies, and procedures to determine what additional
enhancements it could make to strengthen the integrity of the PCA program.

As we do with audit reports developed by non-Federal auditors, we have provided as an
attachment a listing of the     recommendations for your staff's use in working with the State
through our stewardship program to resolve GSA's findings and recommendations.

If you have any questions about this review, please contact me or Curtis Roy, Audit Manager, at
617-565-2684. Please refer to report number A-OI-08-00001 in all correspondence.


Attachments
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   PARTNERSHIP REVIEW OF
 MEDICAID CLAIMS PROCESSED
   BY CEREBRAL PALSY AND
 STAVROS FOR PERSONAL CARE
    ATTENDANT SERVICES
 PROVIDED TO BENEFICIARIES
   DURING INPATIENT STAYS



                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-01-08-00001
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                    The Commonwealth of Massachusetts
                            AUDITOR OF THE COMMONWEALTH
                              ONE ASHBURTON PLACE, ROOM 1819
                               BOSTON, MASSACHUSETTS 02108


A. JOSEPH DeNUCCI                                                          TEL. (617) 727-6200
      AUDITOR




                                  NO. 2008-1374-3S2


                    INDEPENDENT STATE AUDITOR’S REPORT ON
                           CERTAIN ACTIVITIES OF THE
                     OFFICE OF MEDICAID AS ADMINISTERED BY
                     MASSHEALTH IN THE PAYMENT OF CERTAIN
                       CLAIMS FOR PERSONAL CARE SERVICES
                       OCTOBER 1, 2004 TO SEPTEMBER 30, 2005




                                                               OFFICIAL AUDIT
                                                                  REPORT
                                                               OCTOBER 28, 2008
2008-1374-3S2                                                     TABLE OF CONTENTS/EXECUTIVE SUMMARY


                        TABLE OF CONTENTS/EXECUTIVE SUMMARY

INTRODUCTION                                                                                                   1

In accordance with Chapter 118E of the Massachusetts General Laws, MassHealth, within
the Executive Office of Health and Human Services (EOHHS), administers the Medicaid
program, which provides access to health care services for approximately one million low-
and moderate-income individuals, couples, and families in Massachusetts. MassHealth
annually pays in excess of $6 billion on approximately 50 million claims to 30,000 providers,
of which of 50% is federally funded.
Medicaid provides reimbursement for personal care services (PCS) 1 to help people with
long-term disabilities live at home independently. MassHealth administers PCS through its
Personal Care Attendant (PCA) Program, a MassHealth program under which personal care
management (PCM) services, fiscal intermediary (FI) services, and PCA services are available
to MassHealth members. Specifically, PCAs assist people (known in the program as
“consumers”) with activities of daily living (e.g., taking medications, bathing, dressing, eating,
using the toilet) and instrumental activities of daily living (e.g., preparing meals, doing
housework, shopping, traveling to medical providers). In fiscal year 2005, MassHealth paid
$248 million on 746,000 claims related to PCS. This amount increased to $302 million on
802,000 claims in fiscal year 2007.
New members of MassHealth and existing eligible members may apply for PCA services,
after which MassHealth reviews the member’s statement of need for PCA services. If it is
decided that PCA services may be needed, the member must contact a MassHealth-
approved personal care (PC) agency. The PC agency is a public or private agency or entity
under contract with EOHHS to provide personal care management (PCM) services in
accordance with MassHealth regulations and the PCM services contract, or a public or
private agency or entity that has been approved by EOHHS to provide transitional living
services. 2 The PC agency meets with the member for an assessment and an evaluation on
whether the member will be accepted and the extent of PCA services to be provided. Part
of the evaluation is the PC agency’s determination of whether the consumer can manage the
PCA program independently. If the PC agency determines that the consumer requires the
assistance of a surrogate (a person who substitutes for consumers who are physically or
cognitively unable to perform certain tasks), the consumer will appoint a surrogate who
meets certain criteria.
Once accepted into the PCA program, consumers employ a PCA to assist them with the
activities of daily living (ADLs) and with the instrumental activities of daily living (IADLs).
The consumer or a surrogate is the sole party responsible to ensure that information
submitted to the FI on the activity forms for each two-week pay period correctly identifies
who provided the PCA services and the correct hours and dates during which the PCA
services were provided. 3 To provide PCM services, the PC agency must select a
MassHealth-approved FI. The PC agency educates the consumer on the role of the FI, and

1 130 CMR 422.402: Personal Care Services are services provided to an eligible MassHealth member for the purpose of
  assisting the member to achieve independent living, including PCM services, PCA services, and fiscal intermediary
  services.
2 130 CMR 422.431 to 422.441
3 130 CMR 422.420 (A) (3) & (4)




                                                         i
2008-1374-3S2                                                      TABLE OF CONTENTS/EXECUTIVE SUMMARY


the FI performs numerous administrative tasks, including processing all claims for PCA
services and verifying the mathematical accuracy of PCA activity forms. Moreover the FI, as
an intermediary, accepts reimbursement from MassHealth for PCS for which the FI made
payments to the PCA via the consumer.
The U.S. Department of Health and Human Services Office of Inspector General
(HHS/OIG) issued a report on October 12, 2007 titled, “Review of Personal Care Services
Claimed by the Center for Living and Working, Inc.” EOHHS had a contract with the Center
for Living and Working, Inc., (CLW) to provide FI services beginning in 1998 and PCS
beginning in 2002. EOHHS terminated its FI contract with CLW in December 2005.
HHS/OIG’s report indicated that during the period October 1, 2003 through September 30,
2005, CLW did not always claim PCS in accordance with Medicaid rules and regulations. Errors
were found that HHS/OIG attributed to CLW’s lack of sufficient procedures to ensure that
CLW claimed reimbursement for services in accordance with Medicaid rules and regulations.
HHS/OIG found that reimbursements were paid for PCA-provided services on dates when the
consumers were hospital inpatients and for PCA services that were either insufficiently
documented or unauthorized. PCA services provided to a consumer while he or she is a
resident of a nursing facility or other inpatient facility are not reimbursable under both state 4
and federal 5 regulations. Based on the audit’s results, HHS/OIG estimated that CLW received
overpayments of $493,777, and recommended that the $256,366 federal share be refunded.6
HHS/OIG has developed a Partnership Plan in an effort to provide broader coverage of the
Medicaid Program, aimed at analyzing and controlling runaway Medicaid costs, by partnering
with State Auditors to conduct joint reviews. HHS/OIG believes that the Partnership Plan
approach will be a more effective and efficient use of limited audit resources by both the
federal and state audit sectors. The Office of the State Auditor believes that this partnership
will be a major benefit in effectively and efficiently auditing the Commonwealth’s Medicaid
program, which has a significant financial impact on both the federal and state budgets.
Moreover, this cooperative audit effort has the potential to generate substantial cost savings
at both levels. As part of the partnership, HHS/OIG extended its audit into MassHealth’s
reimbursement for PCA services while consumers are residents of nursing facilities or other
inpatient facilities. HHS/OIG selected a sample of 200 periods of service (POS) for which
claims were paid for PCA services performed at the time that the consumer could have been
residing in a nursing facility or other inpatient facility. The HHS/OIG sample was given to
the OSA for audit. (See Appendix.)
In accordance with Chapter 11, Section 12, of the General Laws, we conducted an audit of
the HHS/OIG sample of claims. In the selection of its sample, HHS/OIG reviewed the
PCS claimed by the two largest FI providers to MassHealth from October 1, 2004 through
September 30, 2005 (federal fiscal year 2005). During this period, a total of $169,585,212 was
paid for 250,811 PCA service claims processed by the two FIs. Of this amount, HHS/OIG
determined that $3,311,605 was paid for 3,612 claims for PCA services that could have been
provided while consumers were residents of nursing facilities or other inpatient facilities.
The objective of our audit was to determine the quantity of hours and amount paid for PCA


4 130 CMR 422.412 (D)
5 Section 1905(a)(24) of the Social Security Act
6 The federal funding participation rate from October 1, 2003 to June 30, 2004 was 52.95% and on July 1, 2004 assumed

  the current rate of 50%.




                                                         ii
2008-1374-3S2                                             TABLE OF CONTENTS/EXECUTIVE SUMMARY


services performed during periods in which consumers were residents of nursing facilities or
other inpatient facilities.

AUDIT RESULTS                                                                                    7

   INADEQUATE INTERNAL CONTROLS AT MASSHEALTH HAS RESULTED IN
   ESTIMATED OVERPAYMENTS OF $610,333 IN CLAIMS FOR PERSONAL CARE
   ATTENDANT SERVICES                                                                            7

   Our audit indicated that MassHealth’s internal controls and procedures were inadequate
   to prevent or discover the payment of claims for PCA services performed while
   consumers are residents of nursing facilities or other inpatient facilities, resulting in
   overpayments as defined by applicable laws, rules, and regulations. We audited the
   sample of 200 POS provided by HHS/OIG and discovered that in 118 (59%) cases
   claims were paid for PCA services that were performed while the consumer was a
   resident of a nursing facility or other inpatient facility. The total amount paid in claims
   for PCA services in the sample was $187,629, of which $34,944 (18.6%) was overpaid.
   As a result of the inadequate internal controls and procedures and the high exception rate
   from the sample of 200, the OSA has initiated a more extensive audit that will include a
   review of documentation pertinent to the claims and providers. The expanded audit’s
   objective will be to determine the cause and effect of these overpayments and to
   recommend improvements in MassHealth’s internal controls and procedures relating to
   the PCA program.
   HHS/OIG extrapolated the results of the OSA’s audit of the sample to the entire
   population of POS for which claims were paid for PCA services performed when there
   was the potential that consumers were residents of a nursing facility or other inpatient
   facility. HHS/OIG thereby estimated that $610,333 was overpaid by MassHealth for
   non-covered PCA services.
   In response to the audit report, MassHealth indicated that it is undertaking an extensive
   review of its rules, regulations, policies and procedures to determine what additional
   enhancements could be made to strengthen the integrity of the PCA program. We are
   pleased that MassHealth has taken our audit results into consideration for corrective
   action.

APPENDIX                                                                                         15

   SAMPLING METHODOLOGY, RESULTS, AND ESTIMATES                                                  15




                                                 iii
2008-1374-3S2                                                                            INTRODUCTION



                                              INTRODUCTION

Background

In accordance with Chapter 118E of the Massachusetts General Laws, MassHealth, within the
Executive Office of Health and Human Services (EOHHS), administers the Medicaid program,
which provides access to health care services for approximately one million low- and moderate-
income individuals, couples, and families in Massachusetts. MassHealth annually pays in excess of
$6 billion on approximately 50 million claims to 30,000 providers, of which 50% is federally funded.

Medicaid provides reimbursement for personal care services (PCS) to help people with long-term
disabilities live at home independently. PCS are services provided to eligible MassHealth members
for the purpose of assisting the member to achieve independent living, including personal care
management (PCM) services, personal care attendant (PCA) services, and fiscal intermediary (FI)
services. 7 Specifically, PCS assist members with activities of daily living (e.g., taking medications,
bathing, dressing, eating, using the toilet) and instrumental activities of daily living (e.g., preparing
meals, doing housework, shopping, traveling to medical providers). In fiscal year 2005, MassHealth
paid $248 million on 746,000 claims related to PCS. This amount increased to $302 million on
802,000 claims in fiscal year 2007.

New members of MassHealth and existing eligible members may apply for PCA services, subject to
the restrictions and limitations described in MassHealth regulations.         MassHealth reviews the
member’s statement of need for PCA services and notifies the member of its decision. If it is
decided that PCA services may be needed, the member must contact a MassHealth-approved PC
agency, which will then meet with the member for an assessment and evaluation on whether the
member will be accepted and the extent of PCA services to be provided. Part of the evaluation is
the PC agency’s determination of whether the consumer can manage the PCA program
independently. If the PC agency determines that the consumer requires the assistance of a surrogate
(a person who substitutes for consumers who are physically or cognitively unable to perform certain
tasks), the consumer will appoint a surrogate who meets certain criteria. Each PC agency has a
working relationship with a fiscal intermediary for all of the members it serves, and educates
members in the role of the FI.


7   130 CMR 422.402: Personal Care Services




                                                   1
2008-1374-3S2                                                                         INTRODUCTION


When the PC agency accepts a member for PCA services, the member is then known in the
program as a “consumer” and becomes the employer of his or her own PCA. This means that the
consumer (or surrogate) becomes responsible for finding, hiring, training, and firing (if needed) his
or her PCA. The consumer employs the PCA to assist him or her with the activities of daily living
(ADLs) and with the instrumental activities of daily living (IADLs). The PCA is paid based on the
number of 15-minute segments (units) that are performed providing ADLs and IADLs. The claims
within this audit were paid at a rate of $2.91 per unit for those occurring prior to January 2, 2005;
$3.00 per unit from then until July 3, 2005; and $3.07 per unit thereafter. The premium rate for
overtime and holidays is 150% of the base rate.

The consumer has to follow specific rules to make sure his or her PCA gets paid on time. The PC
agency informs the consumer on how to get help with these duties, and the consumer or surrogate is
responsible for complying with all applicable MassHealth regulations. 8        It is the consumer’s
responsibility to complete and sign activity forms and submit them to the FI. Additionally, the
consumer is the sole party responsible for ensuring that information submitted on the activity forms
for each pay period (two weeks) correctly identifies who provided the PCA services and the correct
hours and dates during which the PCA services were provided. 9 The billing and payment for the
PCA services for the two-week pay period is considered one claim.

The PCA is not a provider to MassHealth, but an unlicensed independent contractor employed by
the consumer. As such, the PCA is not regulated by MassHealth regulations, but is managed by the
consumer or surrogate. The criteria set by MassHealth regulations are that services must be
performed by a PCA who is: (a) not the spouse of the member, the parent of a minor member,
including an adoptive parent, or any legally responsible relative; (b) not the member’s surrogate; (c)
not the member’s foster parent; (d) legally authorized to work in the United States; (e) able to
understand and carry out directions given by the member or the member’s surrogate; (f) willing to
receive training and supervision in all PCA services from the member or the member’s surrogate;
and (g) not receiving compensation from any other entity for that activity time performing PCA
services except where such entity is nonprofit, does not receive funds from any state agency other




8   130 CMR 422.420: PCA Program: Member Responsibilities
9   130 CMR 422.420 (A) (3) & (4)




                                                       2
2008-1374-3S2                                                                         INTRODUCTION


than MassHealth, and has a Board of Directors consisting of at least 51% members, family
members, and/or siblings of members. 10

The PC agency is a public or private agency or entity under contract with EOHHS to provide
personal care management (PCM) services in accordance with MassHealth regulations and the PCM
services contract; or a public or private agency or entity that has been approved by EOHHS to
provide transitional living services. 11 Some of the PCM services provided are: (a) maintaining a
communication system that is accessible to members on a 24-hour basis; (b) performing evaluations
and reevaluations; (c) instructing the member in the rules, policies, and regulations of the PCA
program; (d) providing functional skills training in the management of the PCA, personal health care
maintenance, emergency management and interaction with the FI; (e) working with the member to
establish a list of PCAs who can be contacted when an unforeseen event occurs that prevents the
member’s regularly scheduled PCA from providing services; (f) reporting suspicion of fraud to the
MassHealth agency in the format specified by the MassHealth agency and cooperating with any
subsequent investigation; and (g) notifying the MassHealth agency if, in the opinion of the PC
agency, the member’s surrogate is not managing PCA tasks for the member in accordance with
MassHealth regulations. 12

To provide PCM services, the PC agency must select a MassHealth-approved FI. The FI performs
numerous administrative tasks, including processing all claims for PCA services and verifying the
mathematical accuracy of PCA activity forms that detail the hours of services performed by PCAs
for a two-week period.          Moreover, as an intermediary, the FI accepts reimbursement from
MassHealth for PCS for which the FI made payments to the PCA via the consumer. Among other
services performed by the FI are: (a) establishing a member services unit with staff trained to answer
member telephone calls about activity forms, tax forms, and the functions of the fiscal intermediary;
(b) establishing, in conjunction with the PC agency, systems to resolve member and PCA complaints
in a timely fashion; (c) developing, using, and distributing standardized activity forms and schedules
to document the use of PCAs and to meet the requirements for reimbursement; (d) issuing checks
for PCAs with appropriate taxes withheld; and (e) reporting suspicion of fraud to the MassHealth



10 130 CMR 422.411 (A) (1)
11 130 CMR 422.431 to 422.441
12 130 CMR 422.419 (A)




                                                  3
2008-1374-3S2                                                                                          INTRODUCTION


agency in the format requested by the MassHealth agency and cooperating with any subsequent
investigation. 13

The U.S. Department of Health and Human Services Office of Inspector General (HHS/OIG)
issued a report on October 12, 2007 titled, “Review of Personal Care Services Claimed by the Center
for Living and Working, Inc.” EOHHS had a contract with the Center for Living and Working,
Inc., (CLW) to provide FI services beginning in 1998 and PCM services beginning in 2002.
EOHHS terminated its FI contract with CLW in December 2005. HHS/OIG’s report revealed that
during the period October 1, 2003 through September 30, 2005, CLW did not always claim PCS in
accordance with Medicaid rules and regulations. Errors were found that HHS/OIG attributed to
CLW’s lack of sufficient procedures to ensure that it claimed reimbursement for services in
accordance with Medicaid rules and regulations. HHS/OIG found that reimbursements were paid
for PCA-provided services on dates when the consumers were hospital inpatients and for PCA
services that were either insufficiently documented or unauthorized. PCA services provided to a
consumer while he or she is a resident of a nursing facility or other inpatient facility are not
reimbursable under both state 14 and federal regulations 15 . Based on the audit’s results, HHS/OIG
estimated that CLW received overpayments of $493,777 ($256,366 federal share16 ). HHS/OIG
recommended that CLW refund to the state agency the overpayment and strengthen procedures to
ensure that it claims PCA services in accordance with Medicaid rules and regulations.

HHS/OIG has developed a Partnership Plan in an effort to provide broader coverage of the
Medicaid Program, aimed at analyzing and controlling runaway Medicaid costs, by partnering with
State Auditors to conduct joint reviews.               The HHS/OIG believes that the Partnership Plan
approach will be a more effective and efficient use of limited audit resources by both the federal and
state audit sectors. The Office of the State Auditor believes that this partnership will be a major
benefit in effectively and efficiently auditing the Commonwealth’s Medicaid program, which has a
significant financial impact on both the federal and state budgets. This cooperative audit effort will
generate substantial cost savings at both levels. As part of the partnership, HHS/OIG extended its

13 130 CMR 422.419 (B)
14 130 CMR 422.412 (D)
15 Section 1905(a)(24) of the Social Security Act authorizes payment for personal care services for a beneficiary “who is

  not an inpatient or resident of a hospital, nursing facility, intermediate care facility for the mentally retarded or an
  institution for mental disease. . . . ”
16 The federal funding participation rate from October 1, 2003 to June 30, 2004 was 52.95% and on July 1, 2004

  assumed the current rate of 50%.




                                                            4
2008-1374-3S2                                                                           INTRODUCTION


audit into MassHealth’s reimbursement for PCA services while consumers are residents of nursing
facilities or other inpatient facilities. As will be explained in greater detail in the Audit Scope,
Objectives, and Methodology section of this report, HHS/OIG selected a sample of 200 periods of
service (POS) during which claims were paid for PCA services performed when consumers could
have been residents of nursing facilities or other inpatient facilities. From each of the two largest FI
providers in the Commonwealth 100 POS were selected. The FIs billed the claims for PCS services
to MassHealth, the Massachusetts Medicaid Management Information System (MMIS) processed
them, and payments to the PCAs were issued by the FIs. The HHS/OIG sample was given to the
OSA to be audited.

Audit Scope, Objectives, and Methodology

The OSA and HHS/OIG have established a Partnership Plan in an effort to provide broader
coverage of the Medicaid Program and to provide for more effective and efficient use of scarce audit
resources by both the federal and state audit sectors. In accordance with Chapter 11, Section 12, of
the Massachusetts General Laws, we conducted an audit of a sample of 200 POS, that was selected
and provided to us by HHS/OIG (see Appendix), which included claims paid for PCA services
performed at a time when the consumers could have been residents in nursing facilities or other
inpatient facilities. Our audit was conducted in accordance with applicable generally accepted
government auditing standards. Our objective was to determine whether claims were paid for PCA
services rendered while consumers were residents of nursing facilities or other inpatient facilities
and, if they were, to quantify the number of hours and the amount paid on these claims.

In the selection of its sample, HHS/OIG reviewed the PCS claimed by the two largest FI providers
to MassHealth from October 1, 2004 through September 30, 2005 (federal fiscal year 2005). During
this period, a total of $169,585,212 was paid for 250,811 PCA service claims processed by these two
FIs. Of this amount, HHS/OIG determined that $3,311,605 was paid for 3,612 claims for PCA
services that could have been provided while consumers were residents in nursing facilities or other
inpatient facilities. HHS/OIG limited consideration of the FIs’ internal control structure to those
internal controls concerning PCA claims processing because the objective of its review did not
require an understanding or assessment of the complete internal control structure.             Further,
HHS/OIG concluded that its review of the internal control structure could be conducted more
efficiently by substantive testing.




                                                   5
2008-1374-3S2                                                                      INTRODUCTION


HHS/OIG then compiled a record from the Center for Medicare and Medicaid Services (CMS)
Medicaid Statistical Information System for each of the FI provider’s claims for PCA services that
may have been provided during an inpatient stay, from October 1, 2004 through September 30,
2005. From that record a random sample of 100 POS from federal fiscal year 2005 was selected for
each provider and forwarded to the OSA. It was HHS/OIG’s objective to use the random sample
to estimate the total dollar value of inappropriately paid PCA claims for services provided during
inpatient stays for the total fiscal year.

The OSA delivered to the two FIs the sample of 100 POS processed by them and requested that
they provide us with the applicable activity forms that identify who provided the PCA services and
the hours and dates that the PCA services were provided for the period for which the claims were
processed. We visited the FIs at their places of business, interviewed management regarding
procedures, and collected the activity forms for our review. Utilizing the Medicaid Management
Information System (MMIS) and the data warehouse, we matched dates of PCA services that
corresponded with the same days during which the consumers were residents of a nursing facility or
other inpatient facility (dates of admission and discharge were excluded). The OSA then quantified
the number of hours and the amount paid on all inappropriately paid claims.

The OSA conducted meetings with the FIs and with various management and personnel of
MassHealth and EOHHS, and we reviewed applicable state and federal laws, rules, and regulations,
as well as applicable MassHealth and EOHHS policies and procedures.




                                                6
2008-1374-3S2                                                                           AUDIT RESULTS


                                        AUDIT RESULTS

   INADEQUATE INTERNAL CONTROLS AT MASSHEALTH HAS RESULTED IN ESTIMATED
   OVERPAYMENTS OF $610,333 IN CLAIMS FOR PERSONAL CARE ATTENDANT SERVICES

   Our audit found that MassHealth’s internal controls and procedures are inadequate to prevent or
   detect overpayments resulting from the payment of claims for Personal Care Attendant (PCA)
   services performed while consumers are residents of nursing facilities or other inpatient facilities.
   We audited a sample of 200 periods of service (POS) provided by the United States Department
   of Health and Human Services’ Office of Inspector General (HHS/OIG) and discovered that in
   118 (59%) cases claims were paid for PCA services that were performed while the consumer was
   a resident of a nursing facility or other inpatient facility. The total amount paid in claims for
   PCA services in the sample was $187,629, of which $34,944 (18.6%) was overpaid and
   potentially fraudulent.   MassHealth and Executive Office of Health and Human Services
   (EOHHS) management agreed that the claims were for non-covered services and overpaid.
   They also stated that they were unaware that payments had been made for PCA services while
   consumers were residents of nursing facilities or other inpatient facilities. The 130 Code of
   Massachusetts Regulations (CMR) 422.412, Non-Covered Services, states, in part:

       MassHealth does not cover any of the following as part of the PCA program or the
       transitional living program: . . . (D) PCA services provided to a member while the
       member is a resident of a nursing facility or other inpatient facility;

   MassHealth and EOHHS management acknowledged that internal controls were inadequate to
   prevent these payments, and indicated that a prepayment edit in the Medicaid Management
   Information System (MMIS) designed to deny payment for PCA services that were performed
   while a consumer was a resident of a nursing facility or other inpatient facility would not be
   effective. They also noted that laws and regulations require timely payment to PCAs for services
   rendered, and that payments are currently made before any evidence of a consumer’s hospital or
   nursing facility residence is entered in MMIS. They therefore concluded that MassHealth’s only
   remaining option was to “pay and chase” (i.e., post payment reviews to identify overpayments
   and seek refunds of funds paid) the claims. Management further noted the following:

       The consumer, as the employer of PCA services, is ultimately responsible; there is no one
       person/party on the MassHealth side that is responsible.




                                                  7
2008-1374-3S2                                                                           AUDIT RESULTS


   As a result, the only internal control over payments for services resides in MassHealth’s trust in
   consumers’ and surrogates’ veracity. Consumers and their surrogates are the sole parties
   responsible for ensuring that the information submitted to the FI on the activity forms for each
   two-week pay period correctly identifies who provided the PCA services and the correct hours
   and dates that the PCA services were provided. The 130 CMR 422.420, PCA Program Member
   Responsibilities, states, in part:

       As a condition of receiving MassHealth PCA services, the member must:

       (3)   complete and sign activity forms and submit them to the fiscal intermediary in
             accordance with the instructions provided and time frame specified by the fiscal
             intermediary;

       (4)   ensure that information submitted on the activity forms for each pay period
             correctly identifies who provided the PCA services, and the correct hours and dates
             that the PCA services were provided; . . .

       (12) notify the personal care agency when there is a change in the member’s medical
            condition or living situation that may require an adjustment in the number of
            day/evening hours per week or night hours per night authorized by the MassHealth
            agency; . . .

       (20) comply with all applicable MassHealth regulations.

   We reviewed all of the activity forms for each POS in the audit sample and data in MMIS that
   confirmed that the claims for PCA services performed as indicated on these forms were paid.
   Additionally, we researched in MMIS and its data warehouse all claims paid for services provided
   to the consumers during the applicable POS for hospital and nursing facilities. We found that
   PCA services were performed for consumers when they were either a hospital inpatient or a
   resident of a nursing facility.

   Our review determined that 118 of the 200 POS paid claims in our sample, or 59%, were claims
   made for non-covered services where a consumer was in a nursing facility or other inpatient
   facility. The paid claims in our sample were $187,629, of which $34,944, or 18.6%, was paid for
   non-covered services. The average exception in the sample was $296.13. There was a higher
   incidence of consumers being hospital inpatients than residents of nursing facilities. However,
   those in nursing facilities experienced a longer period of residence than those in hospitals. As a
   result, the percentage exception for consumers who were in nursing facilities was 46.7% versus a




                                                   8
2008-1374-3S2                                                                                         AUDIT RESULTS


   percentage exception of 62.7% for consumers in hospitals. The following tables summarize the
   results of our review of activity forms and consumers’ residency.

                                                 Results of OSA Audit of Sample


                                                                       Inpatient     Resident in        In Both
                                                        Totals         Hospital    Nursing Facility    Facilities
                    Quantities
    Audit Sample Residency during POS                    200             153             45                2
    PCA Services Claimed and Paid for Non-
      Covered Services                                   118              96             21               1
    Percentage Exceptions                               59.0%           62.7%          46.7%            50.0%
                     Amounts
    PCA Services Claimed and Paid during Total
      POS in Sample                                    $187,629        $148,073        $38,375          $1,181
    PCA Services Claimed and Paid for Non-
      Covered Services                                 $34,944         $23,164         $11,442           $338
    Percentage Exceptions                               18.6%           15.6%           29.8%           28.6%
    Average Exception                                  $296.13         $241.29         $544.88         $337.70


   HHS/OIG extrapolated the results of the OSA’s audit of the sample to the entire population of
   POS for which claims were paid for PCA services performed when there was the potential that
   the consumer was a resident of a nursing facility or other inpatient facility. HHS/OIG thereby
   estimated that $610,333 was overpaid by MassHealth for non-covered PCA services.

   (See Appendix.)

   As a result of the large exception rate and the lack of internal controls in MassHealth’s
   administration of the PCA program, the OSA has initiated a more extensive audit of the sample
   of overpaid claims with the objective of determining the cause and effect of the overpayments
   and to make recommendations for their prevention and detection. Specifically, the OSA will
   determine whether all parties to the claim (the consumer, PCA, PC agency, and FI) were in
   compliance with applicable laws, rules, and regulations and whether MassHealth has the proper
   internal controls in place to prevent fraud and abuse and ensure compliance. We will research in
   our expanded-scope audit whether the anticipation of imminent homecomings and shorter stay
   caused the percentage of exceptions to be higher for consumers who were hospital inpatients.
   Also, we will attempt to determine why there is a substantially different ratio between FIs of
   consumers being hospital inpatients to those that are residents of nursing facilities, as well as the
   percentage of exceptions.




                                                                  9
2008-1374-3S2                                                                          AUDIT RESULTS


Recommendation

   Based on the results of our audit, MassHealth should strengthen its internal controls and
   oversight over payments for PCA services to ensure that it is not paying for non-covered
   services, including those provided while consumers are residents of nursing facilities or other
   inpatient facilities. We recommend that MassHealth:

      1. Conduct an extensive investigation into each of the paid claims determined in the
         audit to not be in compliance with applicable laws, rules, and regulations to
         determine (a) whether fraud occurred and (b) which policies, procedures, and
         internal controls need to be amended to prevent fraud and abuse and ensure
         compliance.

      2. Consider expanding the obligations of the PC agencies’ management role to
         include frequent periodic checks to verify that the PCAs are actually performing
         services for the hours and on the days claimed in the activity forms.

      3. Develop edits within MMIS that will suspend payment for PCA services when
         there is any evidence that the consumer is a resident of a nursing facility or other
         inpatient facility, and expand these edits to include all non-covered services as
         indicated in 130 CMR 422.412.

      4. Establish regular audits of PCS by the internal audit department with the intent
         to detect, prevent, and deter fraud and abuse. Conduct an audit of all payments
         for PCA services during state fiscal years 2006-2008 and identify overpayments
         for non-covered services.

      5. Seek and collect refund of the estimated $610,333 in claims paid for non-covered
         services.

      6. Notify all consumers, surrogates and PCAs by letter of the serious nature of
         making a false claim and the potential penalty to be borne by the offending party.

      7. Consider establishing rules and regulations for PCAs that clearly delineate their
         obligations relative to the veracity of the activity forms in addition to the criteria
         indicated in 130 CMR 422.411 (A) (1).

      8. Refer all instances of potential consumer fraud and potential provider fraud to
         the Office of the State Auditor’s Bureau of Special Investigations and the
         Medicaid Fraud Control Unit in the Office of the Attorney General.

   Auditee’s Response

      The MassHealth Personal Care Attendant (PCA) program is a critical component of
      MassHealth’s community long term care delivery system. The program is a core service
      that empowers and supports people with disabilities and elders (Consumers) to live with
      dignity and independence. By design, the program is constructed as a consumer




                                                 10
2008-1374-3S2                                                                             AUDIT RESULTS


      directed program. Consumers are the employers of their PCAs, and are supported by
      MassHealth through contracted services delivered by Personal Care Management
      Agencies (PCM) and Fiscal Intermediaries (FI). Massachusetts’ program is nationally
      recognized for the maturity of its program design including, specifically, the extent of the
      employer-related supports provided to Consumers. As the Commonwealth continues to
      maximize the extent to which people with disabilities and elders are able to live
      successfully in their homes and communities, MassHealth will continue to work diligently
      to improve the capacity and quality of long term care programs, including ensuring that
      the PCA program includes sufficient and appropriate mechanisms for program integrity.

      MassHealth has implemented a variety of internal controls within the PCA program.
      These controls are designed to ensure that members have timely access to medically
      necessary PCA services, that members and their surrogates are provided with the
      information necessary to successfully manage the PCA program, and that we maximize
      the efficient use of program resources by minimizing the possibilities for fraud, waste,
      and abuse. Although we strive for complete prevention of fraud and abuse in this
      program, we are encouraged by the OSA’s findings in this audit that less than 0.36% of
      the total PCA program spending was subject to the type of potential abuse identified in
      your report.

      Because of the unique design of the PCA program, many of the typical methods for
      maintaining program integrity used in the administration of other MassHealth services
      are not appropriate or available for PCA. Based on OSA’s findings, however, MassHealth
      is undertaking an extensive review of its rules, regulations, policies, and procedures to
      determine what additional enhancements could be made to strengthen the integrity of
      the MassHealth PCA program.

      We would like to take this opportunity to respond to OSA’s recommendations.

          Recommendation #1

          MassHealth will continue to work closely with the Office of the State Auditor’s Bureau
          of Special Investigations (BSI) regarding the PCA program. MassHealth and BSI
          jointly developed policies and procedures and a referral form specific to reporting
          suspicion of PCA program fraud; PCM Agencies and Fiscal Intermediaries are
          required to use this form when reporting suspicion of PCA program fraud.
          MassHealth and BSI meet at least twice per year to review reported cases. In
          addition, MassHealth has included BSI in statewide trainings of PCM Agencies and FIs
          to educate them on their responsibilities in reporting cases of suspected fraud.
          MassHealth refers all reports to BSI and logs and tracks all referrals. MassHealth has
          referred over 1,400 cases of suspicion of fraud to BSI in the past 10 years.
          MassHealth will continue to refer cases, including the specific cases identified by OSA
          during its audit to BSI for investigation to determine whether or not fraud occurred.

          MassHealth is reviewing its current policies, procedures, and internal controls to
          determine if there is additional action that MassHealth, PCM Agencies, or Fiscal
          Intermediaries can take to detect or prevent fraud and abuse.

          Recommendation #2

          PCM Agencies are responsible for educating MassHealth members as to their
          responsibilities as participants in the MassHealth PCA program, and as employers of
          their PCAs. This education and skills training includes informing a Consumer that the




                                                  11
2008-1374-3S2                                                                              AUDIT RESULTS


          PCAs they employ cannot work for them while the Consumer is an inpatient of a
          facility, and that the Consumer and PCA must certify the appropriateness of each
          activity form submitted.

          MassHealth will continue to evaluate the roles of its contractors to determine what
          additional actions PCM Agencies and FIs could take to ensure that Consumers are
          clearly instructed and reminded of their responsibilities to ensure PCAs are employed
          in accordance with applicable PCA rules and regulations.

          Recommendation #3

          PCAs must be paid in a timely manner and, as PCA claims are generally received and
          paid well in advance of claims for facility services, it is not possible for MassHealth to
          develop edits that will suspend payment for PCA services prior to payment.
          MassHealth is, however, working to develop a schedule of post-payment reviews of
          PCA. MassHealth will take appropriate action to follow up on any overlaps in services
          identified in the post-payment reviews, including referral to BSI for further
          investigation as appropriate.

          Recommendation #4

          MassHealth is developing a number of algorithms to detect anomalies in our PCA
          program, and is in the process of conducting a review of all potential overpayments
          made during 2006-2008 for PCA services provided while Consumers were in facilities.
          MassHealth will follow up on its findings, including submitting referrals to BSI as
          appropriate.

          Recommendation #5

          Implementation of this recommendation is contingent upon BSI completing
          investigations of the 18 cases identified in the OSA audit.

          Recommendation #6

          Current signature language appearing on all activity forms was developed in
          conjunction with BSI and requires Consumers and PCAs to certify, under the pain
          and penalty of perjury, that services were provided during the time identified on the
          form. MassHealth is, however, working with its PCM Agencies and FIs to further
          strengthen language on standardized forms, including the activity forms, the Service
          Agreement form, the Consumer Agreement form, and the PCA Signature form.
          MassHealth has published and distributed to each PCA Consumer the MassHealth
          PCA Consumer Handbook, which includes language related to a Consumer’s
          responsibility not to bill for PCA services while the Consumer is in a facility.

          Recommendation #7

          Please see Recommendations 2 and 6 above. In addition, MassHealth will add
          language to the PCA Signature Form reminding PCAs that they cannot receive
          payment for PCA services provided while a Consumer is an inpatient of a facility.




                                                   12
2008-1374-3S2                                                                           AUDIT RESULTS


           Recommendation #8

           See Recommendation 1 above. MassHealth works closely with BSI and will continue
           to do so. Any suspicion of provider fraud is and will be reported to MFCU.

      As indicated above, as a result of the issue identified by OSA, MassHealth is conducting a
      thorough review of its rules, regulations, policies, and procedures and will determine
      what additional enhancements could be made to strengthen the integrity of the
      MassHealth PCA program.

   Auditor’s Reply

   We are pleased that MassHealth has taken our audit results into consideration and has either
   taken corrective action, will take corrective action, or will further evaluate the feasibility of
   implementing the recommendations in our report. With regard to MassHealth’s statement that
   they are encouraged that our findings represented less than 0.36% of the total PCA program,
   please note that our audit was limited to the sample supplied to us by HHS/OIG, and is not a
   comprehensive audit of the program. The total amount of overpayments for federal fiscal year
   2005 were estimated to be $610,333 based on our sample, which is a substantial sum that should
   not be dismissed. Further, the continued growth and increased cost of the program, as well as
   three additional years of program activity, significantly increases this overpayment estimate.

   We agree with MassHealth’s response that it may not feasible to suspend payment via edits for
   PCA services on a timely basis. Nevertheless, such edits could be a useful tool in quickly
   identifying claims subject to post-payment review.

   We acknowledge MassHealth’s ongoing work with the Office of the State Auditor’s Bureau of
   Special Investigations (BSI), and we encourage an internal investigation of the claims. However,
   we do not agree that MassHealth’s investigation and recovery of payments made for non-
   covered services should be contingent on a BSI investigation of the claims. If the claims were
   paid for non-covered services, refunds should be sought.

   The audit identified a substantial number of questionable paid claims that, when combined with
   internal control weaknesses, supports our conclusion that the risks of questionable and
   potentially fraudulent claims being paid is significant. Therefore, MassHealth should continue to
   take the necessary corrective actions to improve its internal controls over claims processing for
   the PCA program.




                                                 13
2008-1374-3S2                                                                 AUDIT RESULTS


   As noted in our report, we are currently conducting an expanded-scope audit of the PCA
   program that will include a review of all pertinent documentation. The objectives of the
   expanded audit will be to determine the cause and effect of these overpayments and to make
   recommendations for improving MassHealth’s internal controls and procedures in the PCA
   program.




                                            14
2008-1374-3S2                                                                           APPENDIX


                                        APPENDIX

                  SAMPLING METHODOLOGY, RESULTS, AND ESTIMATES




OBJECTIVE

The objective of the audit was to determine whether the two Fiscal Intermediaries (FI) were
processing claims for personal care services while the beneficiaries were inpatients.


POPULATION

The populations consisted of 2,198 and 1,414 paid claims totaling $1,955,526 and $1,356,079
that FI #1 and FI #2 processed from October 1, 2004 through September 30, 2005. The
3,612 total personal care attendant claims have dates of service that overlap inpatient dates
of service.


SAMPLE DESIGN

The two simple random samples were designed to select 100 paid claims from each FI that
were processed with dates of services from October 1, 2004 through September 30, 2005.


SAMPLE SIZE

FI #1 and FI #2 samples consisted of 100 paid claims each totaling $14,825 and $20,119,
respectively.




                                              15
2008-1374-3S2                                                                                APPENDIX


                                    APPENDIX (CONTINUED)

                    SAMPLING METHODOLOGY, RESULTS AND ESTIMATES




                                           SAMPLE RESULTS


           Federal              Sample          Value of       Number of          Value of
       Fiscal Year 2005          Size           Sample          Errors             Errors
            FI #1                   100        $1,955,526          54             $14,825
            FI #2                   100        $1,356,079          64             $20,119




                                ESTIMATES OF OVERPAYMENTS


                                                            Projected Value of Erroneous
                                                                       Claims
             FI #1 Point Estimate                                    $325,852

             90-Percent Confidence Level
                Lower Limit                                          $243,676
                Upper Limit                                          $408,029

             FI #2 Point Estimate                                    $284,481

             90-Percent Confidence Level
                Lower Limit                                          $210,548
                Upper Limit                                          $358,414




                                                 16
                                                                       Attachment
                                                                        Page 1 of 2

                           Summary of Recommendations
                             Contained in OSA Report

                      Federal
Recommendation         Share    Resolution
    Codes      Page   Amount     Agency    Sequence           Recommendations

  21290110      10     N/A        CMS         1       Conduct an extensive investigation
                                                      into each of the paid claims
                                                      determined in the audit to not be in
                                                      compliance with applicable laws,
                                                      rules, and regulations to determine
                                                      (a) whether fraud occurred and (b)
                                                      which policies, procedures, and
                                                      internal controls need to be
                                                      amended to prevent fraud and
                                                      abuse and ensure compliance.

  29992610      10     N/A        CMS         2       Consider expanding the obligations
                                                      of the PC agencies’ management
                                                      role to include frequent periodic
                                                      checks to verify that the PCAs are
                                                      actually performing services for
                                                      the hours and on the days claimed
                                                      in the activity forms.

  20291910      10     N/A        CMS         3       Develop edits within MMIS that
                                                      will suspend payment for PCA
                                                      services when there is any
                                                      evidence that the consumer is a
                                                      resident of a nursing facility or
                                                      other inpatient facility, and expand
                                                      these edits to include all non-
                                                      covered services as indicated in
                                                      130 CMR 422.412.

  21290110      10     N/A        CMS         4       Establish regular audits of PCS by
                                                      the internal audit department with
                                                      the intent to detect, prevent, and
                                                      deter fraud and abuse. Conduct an
                                                      audit of all payments for PCA
                                                      services during state fiscal years
                                                      2006-2008 and identify
                                                      overpayments for non-covered
                                                      services.
                                                      Attachment
                                                       Page 2 of 2
32291601   10   $305,167   CMS   5   Seek and collect refund of the
                                     estimated $610,333 in claims paid
                                     for non-covered services.

21292310   10     N/A      CMS   6   Notify all consumers, surrogates
                                     and PCAs by letter of the serious
                                     nature of making a false claim and
                                     the potential penalty to be borne by
                                     the offending party.

29991910   10     N/A      CMS   7   Consider establishing rules and
                                     regulations for PCAs that clearly
                                     delineate their obligations relative
                                     to the veracity of the activity forms
                                     in addition to the criteria indicated
                                     in 130 CMR 422.411.

21292310   10     N/A      CMS   8   Refer all instances of potential
                                     consumer fraud and potential
                                     provider fraud to the Office of the
                                     State Auditor’s Bureau of Special
                                     Investigations and the Medicaid
                                     Fraud Control Unit in the Office of
                                     the Attorney General.
